OIG Investigative Reports, Beckley Woman Pleads Guilty to Embezzlement and Filing a False Tax Return
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
UNITED STATES ATTORNEY'S OFFICE
Southern District of West Virginia
FOR IMMEDIATE RELEASE
May 23, 2006
United States Attorney
Charles T. MillerMedia Contact
Tracy D. Chapman
US Attorney's Office
300 Virginia Street, East
Charleston, WV 25301
1-800-659-8729
Tracy.Chapman@usdoj.gov
Beckley Woman Pleads Guilty to Embezzlement and Filing a False Tax Return
Deborah Mitchell, age 58, of Harper Road, Beckley, West Virginia, pled guilty
before United States District Judge Thomas E. Johnston to a two-count information
charging her with embezzling $1.3 million from RESA I from 1999 to 2006 and
to filing a false income tax return during tax year 2005.
Mitchell, the former Executive Secretary and Financial Manager, admitted to
embezzling the money from RESA 1 by having checks issued to individuals and
companies who were not legitimate RESA vendors. Mitchell admitted to receiving
the checks issued to the individuals and depositing the checks into her own
bank account and her daughter's. Mitchell further admitted to sending large
amounts of RESA I money to her credit card company and to her daughter’s companies
in Columbia, Kentucky.
The case was investigated by the Beckley Police Department, the Internal Revenue
Service-Criminal Investigation Service, the United States Department of Education-Office
of Inspector General and the Federal Bureau of Investigation.
At her sentencing scheduled for September 5, 2006, Mitchell faces 13 years
imprisonment, a fine of $500,000 and an order of restitution in the amount of
$1,313,091.22.
Printable view
Share this page
Last Modified: 09/11/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov